21-567 4

In the Supreme Court of the United States

In Re Gregory Scott Savoy

Case no.

FILED
SEP 1 1 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

★ ★★

Respectfully Requesting Expedited Treatment

On Petition
from a
Defamation Created by a District Judge
(case no. l:20-cv-00784-LO-IDD)

Emergency Petition for a Writ of Mandamus
As Extraordinary Relief

September 11, 2021

Contact: 703-402-8139

Pro Se In Forma Pauperis
Gregory Scott Savoy
DBA Greg Savoy
Hyatt House Herndon
467 Herndon Parkway
Herndon, VA 20170

1

Question presented;

5

1. Is there no escape ever?

r
i

;

i

'[■

3

5

I

1.

;
.1

!

Party to the Proceeding
Liam O’Grady
Senior United States District Judge of the United States District Court for the
Eastern District of Virginia, Alexandria Division
%

Greer Lynch, Chief Deputy Clerk
Albert V. Bryan U.S. Courthouse
401 Courthouse Square
Alexandria, VA 22314
i
t
i

•1

i1
t

i

11.

On Jurisdiction
A public defamation of this petitioner in a district court has caused this
separate and individual action of mandamus to be brought in the Supreme Court
of the United States under the All Writs Act, 28 U.S. Code § 1651(a.)
A similar action of mandamus (FRAP Rule 21) was denied by a final
j

judgment in the U.S. Court of Appeals for the Fourth Circuit August 24, 2021
(Appendix B.) Though structured as a clean new action of mandamus, this
instant action filed on September 11, 2021 at the Supreme Court of the United
States, nevertheless, could be additionally construed as a timely and rightful
petition for certiorari for that denial of Mandamus in the court of appeals.
Additionally, a Motion to Alter Judgment [FRCP Rule 59(e)] is withering in
the U.S. District Court on the same exact issue of this debilitating defamation.
Finally, this petitioner invoked a rare jurisdictional power upon the district
court-found at written page 3 and written page 4 of the initial complaint/motion
[which is a “one action” under Rule 60(b)(6) of the FRCP.] That rare jurisdictional
power was cited, described, and forthrightly requested; Boni Judicis Est
Ampliare Jurisdictionem.1 The presentment of a brightline repugnancy under
the constitution requires no less. Therefore, a shotgun defamation also requires
no less jurisdictional amplification here at this court of final review today.
m.
1A maxim—generally held; it is the duty of a good judge to enlarge the
jurisdiction of the court and amplify remedies, as first cited here; “The maxim of
the English law is, to amplify its remedies, and, without usurping jurisdiction,
apply its rules to the advancement of substantial justice." [Cain v. Chesapeake &
Potomac Tel. Co., 3 App. D.C. 546 (D.C. Cir. 1894) ]. -and- “It is the part of a good
judge to enlarge (or use liberally) his remedial authority or jurisdiction.” Ch.
Prec. 329; 1 Wile, 284. (Black’s Law Dictionary; 2nd Edition)

Table Of Contents
:
i

Question Presented

1.

Party to the Proceeding

11.

On Jurisdiction

in.

Table of Contents

IV.

The Appendixes

v.

The Relief Sought

1

The Issues Presented

2

The Facts Needed

4

The Reasons Why the Writ Should Issue

4

Ladies and gentlemen, the amazing Kurt Reinhold!

6

i

<
t

IV.

The Appendices
Now presented are the Judgments Below and some supporting case materials;
Appendix A- District Court Order that contains the Defamation
(case no. l:20-cv-00784-LO-IDD)
Appendix B- Mandamus Judgement Denied- U.S. Court of Appeals for the
4th Cir., (case no. 21-1600)
Appendix C- Notice of Constitutional Question,
(case no. l:20-cv-00784-LO-IDD)
(includes a Whistleblower Complaint filed with the U.S. Senate
Committee on the Judiciary)
Appendix D- OLD MATERIAL; Family Testimony, concerning no escape
(2013 U.S. Tax Court Exhibit G--as found within the Archive of
U.S. District Court case no. l:20-cv-00784-LO-IDD, Doc. 30-1
and Doc. 30-2, and 2021 Maryland Tax Court Exhibit #4)
Appendix E- Motion to Alter Judgment, w/1993 letter from President Biden
(case no. l:20-cv-00784-LO-IDD)
Appendix F- Table of Ninth Amendment Repugnancies
(case no. l:20-cv-00784-LO-IDD)
Appendix G- NEW MATERIAL; photo
[Greg Savoy (back row, left) standing with
President Obama along with staff of the Reuters News Agency
following a full agency multi-platform availability (official
White House photo extracted from Maryland Tax Court,
Exhibit #44, and from a previously sealed/dismissed
Complaint of Judicial Conduct--U.S. Judicial Conference)]
v.

The Relief Sought
The district court must be instructed by this court to remove the following
defamatory sentence from it’s ORDER granting the Motion(s) to Dismiss issued
on March 5, 2021;2
“Plaintiff suffers from untreated schizophrenia”
--Liam O’Grady, Senior District Judge
(case no. l:20-cv-00784-LO-IDD)
Removal of a sentence; nothing else is being requested in this petition.
This petition is not to be construed in anv wav as being in anv wav an appeal of a
district court decision, not in anv wav whatsoever. Petitioner is seeking removal
of a defamatory sentence from the public record. (This is not a substitute for an
appeal and an appeal does not accomplish removal of the sentence.)

2 Considering it was requested in the Motion to Alter Judgment on March 5,2021,
does it really take 6 months to remove/correct one defamatory sentence from a
public document?
l

The Issues Presented
The petitioner is the recipient of involuntary brain destruction during a
four year period from 1980 through early 1984. (See Appendix D--one single
page)

The mechanism;
“However, we observed a pronounced general shrinkage effect of
approximately 20% and a highly significant variation in shrinkage across
brain regions. In conclusion, chronic exposure of non-human primates
to antinsvchotics was associated with reduced brain volume.
-University of Pittsburgh Primate Research Facility,
(National Library of Medicine, NIH; found at Table of
Ninth Amendment Repugnancies, written page 41, ECF
page 45 of 158, Doc. 1, case no. l:20-cv-00784, USDC
EDVA-Alexandria Division) (emphasis added)
Petitioner has enough liabilities in life (mostly involuntary liabilities) to
caution the courts from piling on needlessly. Despite liabilities, petitioner has
won under God’s care a career working in plain sight for television news
organisations, most profoundly for the world’s oldest and arguably largest news
agency.3 (please see Attachment #1 within Appendix E. Motion to Alter
Judgment, which proves the search results for “Greg Savov Reuters.”1)

3 “No Man Knows Him ... yet HIS SHADOW COVERS THE WORLD!” which are
words describing Paul Julius Reuter from the 1940 theatrical poster for “A
Dispatch from Reuters,” a biopic starring Edward G. Robinson, distributed by
Warner Bros. Pictures, 1940
4 These search results are ever changing. The newest search results this month
for “Greg Savoy Reuters” includes a byline for the interview of an Afghan Pop
Star who narrowly escaped Kabul. That singer, Aryana Sayeed, carries a fatwa of
death from the Taliban. Did the interviewer really suffer from untreated
schizophrenia? Aryana might attest otherwise.
2

til

ThomsonReuters, the parent company, publishes (under its holding called
Westlaw) the decisions and relevant orders of all the district courts, all the courts
of appeals, and this high court. Westlaw is located one floor above Reuters News.5
Whether intentional or not, a surgically targeted defamation of this
petitioner has taken place at the district court in an ipse dixit6 sentence that
transmits a basic run-of-the-mill discrimination; a devious defamation.
This sentence must be removed immediately from public view. That
removal must function as a public correction for those at Westlaw who viewed
it-- and by extension it will be a public correction for the whole of the democratic
republic, a democratic republic in which this petitioner can be found toiling in
any of “the several states” during breaking news stories, as assigned by
ThomsonReuters. (Privileges and Immunities Clause, Art. IV, Sec. 2, Constitution
of the United States)

5 Both are located at 1333 H. Street, Washington, DC 20005
6 Translation of ipse dixit: “he himself said,” or “he said it himself,” from De
Natura Deorum, Bk. 1, Ch. 10, Marcus Tullias Cicero [see also usage of ipse dixit
in General Electric Co. v. Joiner, 522 U.S. 136,137; 118 S.Ct. 512; 139 L.Ed.2d 508
(1997)]
3

The Facts Needed
All the facts needed to support this writ are found at Appendix F, Table of
Ninth Amendment Repugnancies; one shop, one stop, one repugnancy.

Reasons Why the Writ Should Issue
Victims and survivors of schizophrenia, to include survivors of
involuntary psychiatric servitude such as the nationally-known Britney Spears,
have all been proven to statistically hold shorter lifetimes7 because of their
exposure to these POISONOUS substances that are destructive to many organs of
the human body—especially the brain.
Petitioner’s tenuous lifetime spent on the knife-edge of economic failure
establishes him as a per diem contractor who holds these brain destruction
liabilities in perpetuity. In other words, like Britney, nobody is giving back his 20
percent brain volume taken from him by force. Adjusted for the shortened life
statistic, petitioner is presently in his early 80’s compared to someone without a
destroyed brain.

7 “The life expectancy of patients with schizophrenia is reduced by between 15
and 25 years.” as found in: The paradox of premature mortality in
schizophrenia: new research questions, Journal of Psychopharmacology, Nov.
24, 2010 Oxford, England, listed as Pub. Med. ID # 20923916 in the U.S. National
Library of Medicine/NIH
8 Petitioner is a 60 year old Caucasian male
4

Do these final precarious days in this world really need a spotlight on this
public indignity based upon no recent medical records presented to the district
court, let alone any testimony otherwise stating that “petitioner suffers from
untreated schizophrenia.” Yet petitioner could call an endless stream of
witnesses from the journalism profession attesting the opposite--daily
witnesses, no less, to include readers and viewers from the general public as
additional witnesses.9

•1 i
i

!

ik-

i■

9 for examples of a third category of witnesses, see Attachment #2 and
Attachment #3 from within Appendix E; the Motion to Alter Judgment
k
■«

5

I ;

In Conclusion
Statistically shortened lives indeed!
Pinned down by a diagnosis of schizo-affective disorder and then given
antipsychotics, Kurt Reinhold boldly DECLINED medication and then started
walking with God towards a real genuine recovery.
Kurt was subsequently shot dead by two bullets after being wrestled to the
ground by police for suspected jaywalking.10
Jaywalking with God. Is there no escape for any of us ever?

A photo of Kurt Andras Reinhold was part of an impromptu memorial placed in front of
the Hotel Miramar on Camino Real in San Clemente on Thursday, September 24, 2020.
10 “New Footage Shows Cops Who Fatally Shot Black Man During Jaywalking
Incident Debated Whether To Stop Him,” Charise Frasier, NEWSONE, February
23,2021. “NEWSONE is An Urban One Brand and NewsOne.com is your
destination for news and information for and about Blacks in America”

6

Truthfully submitted in support of justice under penalty
of perjury on September 11, 2021,

i

Gregory Scott Savow Pro Se In Forma Pauperis
DBA Greg Savoy //
//

i

Herndon Hyatt House
467 Herndon Parkway
Herndon, VA 20170

i

703-402-8139
eaglescoutwriter@gmail.com

:
i

J

I

«

i

i

5

I

!
•<
7
i

